<html>
<title> - ASSESSING THE PRESIDENT'S STRATEGY IN AFGHANISTAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             ASSESSING THE PRESIDENT'S STRATEGY IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2015

                               __________

                           Serial No. 114-131

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
97-753PDF                   WASHINGTON : 2016                     
                                 
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7314031c33100600071b161f035d101c1e5d">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Frederick W. Kagan, Ph.D., Christopher DeMuth chair and director, 
  Critical Threats Project, American Enterprise Institute........     6
Mr. David. S. Sedney, senior associate, Center for Strategic and 
  International Studies..........................................    13
Andrew Wilder, Ph.D., vice president, Asia Programs, United 
  States Institute of Peace......................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Frederick W. Kagan, Ph.D.: Prepared statement....................     8
Mr. David. S. Sedney: Prepared statement.........................    15
Andrew Wilder, Ph.D.: Prepared statement.........................    32

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
Andrew Wilder, Ph.D.: Material submitted for the record..........    60
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    65

 
           ASSESSING THE PRESIDENT'S STRATEGY IN AFGHANISTAN

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. With the approval of the ranking member, 
we are going to start. And thank you very much. The 
subcommittee will come to order.
    After recognizing myself and the ranking member for 5 
minutes each for our opening statements, I will then recognize 
any other member seeking recognition for 1 minute. We will then 
hear from our witnesses. Thank you for your patience. Without 
objection the witnesses' prepared statements will be made a 
part of the record and members may have 5 days to insert 
statements and/or questions for the record subject to the 
length and limitations in the rules. The chair now recognizes 
herself for a loosely defined 5 minutes.
    As we are all aware, earlier this week the Department of 
State issued a notice warning of a possible imminent attack in 
Kabul. With so much of our attention focused on the threat from 
ISIS and the problems in Syria, Iraq, and Iran, it is important 
that we do not lose sight of some of the other areas of concern 
for our national security interests, and this security warning 
is a stark reminder of that.
    It took a resurgent Taliban seizing control of Kunduz for 
President Obama to adjust his strategy, announcing a halt to 
the withdrawal of American forces from Afghanistan. It was an 
acknowledgement that the strategy of gradual withdraw was not 
in line with the reality on the ground. Yet concerns remain 
that the President isn't leaving behind enough troops to 
support our objectives in Afghanistan. What was lost in the 
discussion was the fact that Afghan security forces were able 
to regain Kunduz back from the Taliban.
    Our military leaders on the ground feel confident that the 
Afghan security forces have done a good job fighting during 
this season, and are more professional than the Iraqi security 
forces. Today our core mission is to train, to advise, and to 
assist the Afghan security forces, and to conduct 
counterterrorism operations against al-Qaeda and its many 
affiliates.
    Last month I led a bipartisan congressional delegation 
(codel) visit and was pleased to be joined by one of our 
members of our subcommittee, Dr. Yoho, to Afghanistan to meet 
with our troops carrying out this important mission, as well as 
to discuss pressing issues with President Ghani, CEO Abdullah, 
General Campbell, and other U.S. military leaders. I had also 
visited in 2013 when we met with President Karzai.
    The one thing that was abundantly clear to me this time 
around and echoed by everyone with whom I met was that the 
Afghan Government's eagerness to cooperate with us has greatly 
improved and that the team of Ghani and Abdullah is an 
improvement over any combination of Karzai and anyone else.
    The current Afghan leaders are saying the right things and 
are undertaking efforts to root out corruption, to secure and 
stabilize their own country. We cannot abandon our ally. We 
must redouble our efforts to remain engaged to seek a more 
stable Afghanistan.
    ISIS is growing in its presence in Afghanistan, mainly by 
attracting some of the more radical elements of the Taliban who 
have broken away and have sworn allegiance to ISIS. And that 
makes our strategy in Afghanistan that much more important. 
General Campbell told Congress that the terror group status in 
Afghanistan has grown from nascent to operationally emergent 
over the course of just a year. Yet when I led our 
congressional delegation to Afghanistan, I was shocked to hear 
that our mission does not give our commanders and troops the 
authority to go after ISIS, that the tasks for containing and 
defeating this rising threat falls squarely on the Afghan 
Government and its security forces.
    The day the codel departed from the region, we learned that 
seven people in Afghanistan were beheaded by ISIL, and 
thousands of people came out to the streets to protest this 
horrific act of terror. We must rethink the scope of our 
mission to include taking on more than just al-Qaeda and its 
affiliates. We should also re-assess our counternarcotics 
approach in Afghanistan. Terror and drugs are linked as much as 
the profits from the drug trade in Afghanistan fund these 
terror groups. While it is encouraging that the new Afghan 
Government has signed a new counterdrug plan, we need to ensure 
that it has the resources it needs to succeed in action.
    I remain concerned that the number of DEA agents has 
decreased substantially. Our state INL staff are limited in 
their movements, and the Afghan counternarcotics forces cannot 
concentrate on the drug trade because they are busy fighting 
terrorism. Both the U.S. forces and the security forces of 
Afghanistan have a limited amount of air lift capabilities, 
which further limits their ability to tackle any major security 
or counternarcotics concern. This runs the danger of leaving a 
wide area of Afghanistan unexposed to our security efforts, and 
it could have terrible and tragic consequences.
    The administration needs to revisit its strategy, and not 
just put a halt on the withdrawal because artificial timelines 
will not work, and it needs to also get buy-in from Pakistan. 
President Ghani has reached out his hand to Pakistan, but has 
been rebuffed. The U.S. cannot afford to have Pakistan play 
into the instability in Afghanistan and to continue to allow 
terrorists safe haven inside its borders. We currently have a 
pending military package for Pakistan before us in this 
committee. We need to use this leverage to get Pakistan to do 
more on the counterterrorism front and to collaborate rather 
than work against the Afghan Government and its security 
forces.
    During our trip we were also honored to meet with the 
courageous women of Afghanistan and were proud to hear of the 
strides that they are making on behalf of women's rights thanks 
to their hard work and leadership. The stakes are too high in 
Afghanistan for the Afghan people, for the region, and for U.S. 
national security interests to allow Afghanistan to fall back 
on any of the progress we have made together thus far.
    Lastly, I want to thank the men and women who so bravely 
serve and protect our national security interests in 
Afghanistan. We had an opportunity to meet with so many of 
these truly heroic and courageous individuals who continue to 
put their lives at risk each and every day so that we can sleep 
safely at home while they are out there defending our freedom 
and our values.
    And it says say this, it says here. Say this: Congressman 
Deutch got pulled into a last minute meeting, but he will show 
up a little bit later.
    So now I am going to recognize other members for their 
statements. And we will begin with Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    Thank you, Madam Chairman and Ranking Member Deutch for 
convening this very important hearing relating to U.S. strategy 
in Afghanistan. Over the previous 14 years, the U.S. has spent 
an estimated $1 trillion and lost more than 2,300 American 
lives in Afghanistan. Military gains by the Taliban and the 
growing presence of groups like Daesh, as well as a growing 
number of loosely aligned armed groups provide grave 
uncertainty regarding Afghanistan's security and stability. It 
also reveals tremendous challenges and even uncertainty about 
what role we can effectively play in resolving these conflicts.
    The President's recent shift in strategy will leave a 
significant number of American forces in Afghanistan beyond 
2016, creating an unclear future regarding our presence in the 
region and when it will finally conclude.
    I look forward to hearing the perspective of today's 
witnesses who will help provide an assessment of the 
President's strategy in Afghanistan and its impact on our 
overall national security. And with that I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chair. I am glad you called 
this hearing because I don't know what the President's strategy 
really is in Afghanistan. I don't know what his strategy really 
is to deal with terrorism in other parts of the Middle East. I 
haven't quite been able to figure out his overall foreign 
policy generally apart from making concessions to regimes that 
are adverse to our interests like Iran and Russia. So I am 
hoping to be enlightened, and I am glad you called the hearing. 
And I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Frankel, who was actually here before Mr. Cicilline, 
because she welcomed you with great pomp and circumstance. I 
did not realize that, Ms. Frankel.
    Ms. Frankel. That is all right. Mr. Cicilline can go ahead 
of me any time.
    Thank you, Madam Chair, for this hearing. I will be short 
just to--as the chairlady knows, my son served in the United 
States Marines in Afghanistan. He also went back to Afghanistan 
as a member of USAID. So I have a great deal of interest in 
hearing what you have to say today. And I yield back.
    Ms. Ros-Lehtinen. Thank you for your family's sacrifice, 
Ms. Frankel.
    Mr. Zeldin.
    Mr. Zeldin. Well, thank you, Madam Chairwoman, and I want 
to echo Ron DeSantis' point, how grateful we are that you are 
holding this hearing. And I think it is important for our 
constituents to know exactly what the President's strategy is 
in Afghanistan, in Iraq, and Syria. A strategy which is 
questioning what is the realty on the ground overseas, not so 
much what is the rhetoric here at home to best serve one's 
domestic politics.
    We want to know what the rules of engagement are. Are we 
giving flexibility to our local commanders so that they could 
adapt to changing circumstances? Who exactly are the forces on 
the ground? Who is in charge? What is their mission? What is 
their skill set? What's the long-term plan? What is the vision 
for where we want to be a year from now or 5 years from now? 
Whenever we send servicemembers into harm's way, it is 
important for them, their families, for our country to know 
that they are being sent with a strategy to win to keep them 
safe. I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Boyle of Pennsylvania.
    Mr. Boyle. Well, thank you, Madam Chair, and I really am 
going to refrain from an opening statement except to say two 
things. So I guess I am not refraining from an opening 
statement, in typical congressional fashion.
    The first is I am very anxious to hear from this august 
panel. I have had the opportunity to hear from one of the 
members before and am familiar with the work of all three of 
you. That is number one. And, number two, because I might not 
get the opportunity later to say it, absolutely anyone would be 
better than Hamid Karzai, who seemed to in no way appreciate 
the sacrifice that the American people have gone through over 
the last 14 years. So, if anything, we can celebrate that we 
actually do have somewhat of a partner in Afghanistan to move 
us forward. I will yield back.
    Ms. Ros-Lehtinen. Amen. Thank you very much.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair, and thank you for 
holding this hearing. And we thank our witnesses. Looking 
forward to hearing what they have to say this afternoon.
    It seems in recent months due to the growing problems in 
Syria, and the Iran nuclear agreement, and ISIS and a litany of 
other major issues all across the world, that Afghanistan to 
some degree, has kind of been, I think, on the back burner of 
this administration, has kind of fallen from view in many ways. 
However, without question the increase in terrorist attacks 
across the globe is a real threat to stability in the world, 
the future of Afghanistan, and could really undermine U.S. 
interests. All of us on this committee have paid particular 
attention of the mounting threat ISIS has posed. And I think it 
is fair to stay that the administration fails to do due 
diligence to ensure stability in Afghanistan, that we are going 
to see a resurgence in terrorism there as well.
    A thoughtful and cohesive strategy continues to be 
essential in preventing the expansion of al-Qaeda and ISIS and 
other terrorist organizations in Afghanistan. And it is my hope 
that the administration and our regional partners give 
Afghanistan the long-term strategic outlook it deserves as we 
move forward. And thank you very much, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Clawson of Florida.
    Mr. Clawson. I appreciate you all coming in today. This 
whole situation feels to me like the folks that we support in 
Afghanistan don't get along. They don't get up to speed. And 
our allies don't get to pay their fair share. And so while we 
risk the lives of our brave men and women it kind of feels like 
no one else, no one else, Europe, in the region, even the 
people we support, put chips on the table. And we are the only 
one getting wet. And so it kind of adds to this never-ending 
quagmire that we are the only ones really paying the price. And 
so I am hoping that you all will explain if you see a way out 
from that, and so I appreciate you all coming.
    Ms. Ros-Lehtinen. Thank you, Mr. Clawson. And we have been 
joined by Mr. Weber of Texas, in case you have a off-the-cuff 
opening statement, we would love to hear it. You do your best 
work that way.
    Mr. Weber. I think most of my statements are off the cuff, 
Madam Chairwoman. But, no, I am ready to go. Thank you for 
holding this hearing.
    Ms. Ros-Lehtinen. Well, thank you. Then I am pleased to 
welcome our panelists. First we are pleased to welcome back Dr. 
Frederick Kagan who comes from a well-respected esteemed--they 
are a think tank, that family, all to themselves. He is the 
DeMuth chair and director of the Critical Threat Project at the 
American Enterprise Institute. Previously Dr. Kagan served as a 
professor of military history at the United States Military 
Academy at West Point, and was part of General McChrystal's 
strategic assessment group in Afghanistan. Welcome back.
    Secondly we would like to welcome Dr. David Sedney. How 
should I do that?
    Mr. Sedney. That is fine. I am only a juris doctor. So it 
doesn't count, my wife tells me.
    Ms. Ros-Lehtinen. Who is senior associate for the Center of 
Strategic International Studies. In the past he served as 
Deputy Assistant Secretary of Defense for Afghanistan, 
Pakistan, and Central Asia; Deputy Chief of Mission in the U.S. 
Embassy in Kabul; and senior advisor to then U.N. Ambassador 
John Negroponte. Welcome, sir.
    And last but certainly not least, we would like to welcome 
Dr. Andrew Wilder who is Vice President of Asia Programs at the 
United States Institute of Peace. He has served as research 
director for politics and policy at the Feinstein Center at 
Tufts University, and has managed humanitarian development 
programs in Afghanistan for NGOs such as Save the Children, the 
International Rescue Committee and Mercy Corps. Welcome, Dr. 
Wilder.
    And we will begin with you, Dr. Kagan. Thank you. Your 
statements will be made a part of the record. Please feel free 
to summarize.

  STATEMENT OF FREDERICK W. KAGAN, PH.D., CHRISTOPHER DEMUTH 
    CHAIR AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Kagan. Thank you, Madam Chair. To the absent ranking, I 
thank him also.
    Ms. Ros-Lehtinen. If you can hold that a little bit closer.
    Mr. Kagan. I do not usually have a problem being heard. And 
I am very grateful for the committee for holding a hearing on 
this topic at this time. As Representative Chabot pointed out, 
Afghanistan really has fallen from the headlines. And, in fact, 
I have to confess that I had to rip my head out of a planning 
session that the Institute for the Study of War and Critical 
Threats Project have been engaged on in Syria and Iraq and ISIS 
generally in order to try to refocus on Afghanistan.
    And I will start there by saying that we need to recognize 
that we are facing multiple overlapping threats and conflicts. 
And they cannot be stove piped, and they cannot be siloed. You 
cannot have a strategy for defeating ISIS that does not include 
defeating the Wilayat's that it has established in Afghanistan, 
Sinai, and Libya. That it is trying to establish in Yemen, 
Saudi Arabia and elsewhere. It is a global problem. And so we 
have to concern ourselves with the fact that there is a small 
ISIS Wilayat at this point in Afghanistan.
    And a lot of my testimony--a lot of my written testimony is 
about the long-term or midterm threats that I see emerging to 
the U.S. homeland from having--from allowing that organization 
to retain even a relatively small area of ground in Afghanistan 
that it can govern and in which it can radicalize Afghan youth 
and train them rather uncharacteristically for Afghans to be 
focused on attacking us here, and attacking the Europeans in 
Europe, which is historically not something that Afghan 
insurgents have mostly focused on.
    But my testimony focuses on that because it is the most 
immediate, most significant threat to the U.S. homeland. And as 
we ask questions about why do we need to be in Afghanistan at 
all and what are our interests, I do think that it is important 
to begin with what is required to ensure the security and 
safety of the American people. And I think that we do have the 
problem, that that is now in the question from Afghanistan over 
time not at this moment, but it will be, both from ISIS and 
from al-Qaeda which has re-established itself, and we were just 
speaking before this hearing about the large al-Qaeda training 
camp that was attacked and destroyed in Southern Kandahar 
province which is--represents in its own way the complete and 
utter failure of a strategy that was begun in 2001 to drive al-
Qaeda out and keep it from returning. Clearly that isn't 
accomplishing its objective at this point.
    But I think it is equally important to say that if we 
simply oriented our fight in Afghanistan against ISIS and al-
Qaeda, the groups that most imminently--or most deliberately 
target us here, we will fail. That fight will fail. And we will 
fail our larger national security interests as well. Because 
those groups do not pose an existential threat to the Afghan 
Government or the Afghan security forces which are our 
necessary partners. The groups that do post an existential 
threat are the Taliban groups and the Haqqani network and a 
number of their internally focused allies.
    So we face a logical conundrum, that in order to facilitate 
the survival of a partner, and I do salute the partnership of 
President Ghani and Dr. Abdullah, and I do agree that almost 
anyone is preferable to Hamid Karzai as a so-called partner, we 
need to ensure that that partner can survive. And I would 
submit that at this point, given the rise in capability of the 
Taliban and Haqqani forces, and the significant decrease in the 
overall capability of the partnered coalition and Afghan 
forces, that the survival of the Afghan state is very much in 
question now. I am not confident that there will be an 
Afghanistan when the next President takes office. I see the 
mobilization of northern alliance forces to wage their own 
battle in the north as extremely problematic. I think that it 
runs a high risk of igniting or reigniting the ethnic civil war 
that rent the country in the 1990s and before that, and that 
created space for the Taliban to grow in the first place.
    I think, in other words, that the vacuum that has been 
created by the withdrawal of primarily U.S. but also allied 
forces, drawing away from Afghan forces that have actually bled 
quite a lot, and I think it is very important to note that 
there are many, many, many, many, many more dead on the Afghan 
National Security Forces side than there have been on the 
coalition forces side, and I remember Sundays at ISF 
headquarters when we, the coalition, would read out the list of 
those coalition members who had been killed in the previous 
week. And the Afghan Security Force representative would simply 
say 50 or 60 or 70 or 100 members of the ANSF were killed. The 
list was, in his view, too long to read.
    So we have partners who are willing to engage. We have 
partners who are willing to fight, and who are willing to die. 
And, unfortunately, we have not been giving them the support 
that they need and deserve, frankly, against a common threat 
that we need them to fight and they need our help to fight. And 
I sincerely hope, then, there will be some prospect for 
changing that strategy over time. Thank you very much.
    [The prepared statement of Mr. Kagan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                     ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Kagan. Dr. 
Sedney.

STATEMENT OF MR. DAVID. S. SEDNEY, SENIOR ASSOCIATE, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Sedney. Thank you.
    Ms. Ros-Lehtinen. Push that button there and hold it close 
to you.
    Mr. Sedney. Thank you very much, Madam Chair, and thank you 
and your colleague the ranking member, Representative Deutch, 
for holding this hearing. Afghanistan is important. And it has 
the potential to be a disaster for U.S. national security if we 
continue along the current policies. I will make five points, 
and I have three recommendations. I will work hard to get it 
into the 5 minutes.
    First, Afghanistan and its people can succeed. In my 
written testimony, I describe the many foundational areas, 
health, education, women's rights, media freedoms, and an army, 
and soldiers who are fighting and dying in larger numbers than 
ever to defend their own country. The current president and CEO 
are a great improvement. I very much second Representative 
Boyle's point, but I also point out that we are giving a better 
president and a better governing team less, much less, support 
than we ever gave President Hamid Karzai.
    Second, the security situation in Afghanistan has changed 
significantly for the worse. What I will tell you, Madam Chair, 
is somewhat different than you heard in Afghanistan. The 
security situation in Afghanistan is much worse than we had 
planned for and/or that we had prepared the Afghan military to 
face. The Taliban this past year mounted their largest, most 
violent and most successful offensive since they took over the 
country in the late 2000s.
    Daesh, the so-called Islamic State is a growing threat in 
Afghanistan. Foreign radicals and Pakistani extremists who were 
forced out of Pakistan by a Pakistani offensive in North 
Waziristan have taken to fighting in Afghanistan. The 
battlefield is more complex, and as a result, Afghan civilian 
and military causalities this year will be higher than they 
have been before. More Afghans are being killed after American 
forces left than--in a combat role than when we were there. And 
all the indications are is that we will see a bigger, stronger, 
more violent and more successful Taliban offensive in 2016.
    Third, the security architecture that we have in place in 
Afghanistan is not working. The so-called train, advise, and 
assist commands, TAACs, as they are called, are not doing a 
sufficiently good job of training, advising, or assisting. Of 
Afghanistan's six army corps, two are completely uncovered. The 
other four are only partially covered in terms of the advice 
and assistance they are getting. The Taliban this year captured 
seven district capitals, of which they retained two, captured 
for a short period of time Kunduz, and almost captured two 
other capital cities in Afghanistan's north, provincial 
capitals, Faisabad in Badakshan, and Maimana in Faryab 
province.
    Those kind of advances came about despite the brave fight 
of Afghan forces. But it came about because they didn't have 
air support, because they didn't have intelligence report. They 
didn't have the kind of air transport that they need. They will 
need even more next year, and they won't have it, according to 
our current plans. Of course there are things the Afghans 
haven't don't right. With only an acting defense minister, many 
key jobs left unfilled for most of the year, the National Unity 
Government has tried hard but still has much to do. But what we 
haven't done is a huge contributor to this worsening security 
situation.
    My fourth point is Afghanistan's National Unity Government 
which we forced down their throats is not doing the job it 
should. There is much better that they can do, and they need to 
do more. But we need to do more to help them. Our President and 
our Secretary of State forced two competing candidates to rule 
together. They are actually working hard and trying hard, but 
they are not doing a good enough job. We should be doing a 
better job of helping them.
    Fifth, Pakistan's offensive in North Waziristan was the 
most successful counterinsurgency operation the Pakistan/
Afghanistan theater has ever seen. They went in with large 
numbers of ground support, huge amounts of air pressure, and 
they cleaned out the Taliban, making Pakistan today a much 
safer place. However, they forced into Afghanistan hundreds of 
thousands of refugees and put into Afghanistan many who are now 
killing Afghans. We should be putting pressure on Pakistan to 
clean up the mess in Afghanistan that it has made because of 
the actions it took to make Pakistan itself safer.
    My recommendations. First, we need a complete review of our 
policy. I very much second you on this, madam chair. The 
security situation is deteriorating so fast, the capabilities 
that we have are so limited, that if we don't this and do it 
quickly, disaster is possible, along with what Fred Kagan said.
    Second, in the interim we need to change our rules of 
engagement. The rules of engagement are not clear. The rules of 
engagement don't allow us to do many things that are necessary. 
The rules of engagement don't give the Afghan forces the 
support they need.
    And, third, we should work with Pakistan to get Pakistan to 
stop allowing the fighters, the weapons, the explosives to come 
out of Pakistan into Afghanistan. Make no mistake about it. 
Safe havens in Pakistan are the key to the Taliban's success. 
Regardless of what the Pakistanis have told us directly, all 
that really matters is what they do. And so far they have taken 
no steps, no steps at all, to stop the flow of weapons, 
fighters, and explosives into Afghanistan. That flow is 
increasing right now. The situation on the ground in 
Afghanistan is perilous, and unless we act, I see serious 
problems and a government that we should be supporting could 
fail. Thank you.
    [The prepared statement of Mr. Sedney follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Yikes. It is getting worse.
    Dr. Wilder, any good news there?

    STATEMENT OF ANDREW WILDER, PH.D., VICE PRESIDENT, ASIA 
           PROGRAMS, UNITED STATES INSTITUTE OF PEACE

    Mr. Wilder. I will try. But anyway, Chairwoman Ros-Lehtinen 
and Ranking Member Deutch, when he joins us, and members of the 
subcommittee, thank you for this opportunity to give my views 
on the current U.S. strategy in Afghanistan. I would like to 
note that the views I give today are my own, as the U.S. 
Institute of Peace does not take policy positions.
    I am currently the vice president of USIP's Asia Center 
where my responsibilities include overseeing our work in 
Afghanistan. I began to work in this region 30 years ago with 
U.S. humanitarian organizations and witnessed firsthand the 
tragic consequences for Afghans, and eventually the U.S. as 
well, when peace settlements failed and when the world lost 
interest in Afghanistan.
    My main message today, therefore, is that the U.S. should 
not once again prematurely disengage from Afghanistan. In my 
view, the foremost interest of the U.S. in Afghanistan should 
be to help ensure that it remains relatively peaceful and 
stable, and does not slide back into all-out civil war and 
anarchy, precisely the same conditions that gave birth to the 
Taliban in the 1990s, and gave al-Qaeda sanctuary.
    The collapse of the Afghan state would nearly certainly 
result in Afghanistan once again becoming a safe haven for 
transnational terrorist groups, and would al risk destabilizing 
its neighbors, including nuclear armed Pakistan. In this 
regard, I welcome President Obama's recent announcement that 
the U.S. will maintain the current level of 9,800 troops in 
Afghanistan through most of next year. Perhaps more 
importantly, President Obama reversed his earlier plan to close 
down U.S. bases in Afghanistan, and instead to maintain beyond 
2016 at least, 5,500 troops in bases in Bagram, Kandahar, and 
Jalalabad.
    Significantly, for the first time since May 2014, the U.S. 
no longer has a calendar deadline by which to pull out U.S. 
forces. This not only serves to keep options open for the next 
President, but it also sends a strong message to the Afghan 
people as well as the Taliban of the U.S. commitment to achieve 
our objective of a stable Afghanistan.
    I suspected my two colleagues would focus mostly on the 
security situation, and so I thought I would in my oral 
testimony touch on the economic and political situation as 
well. I think the security situation is often the focus of 
attention, but the current economic crisis in Pakistan--in 
Afghanistan is one of the most serious threats to the stability 
of the current government and the constitutional order in 
Afghanistan.
    The Afghan economy is in dire straits. Economic growth has 
been very weak. A 1.3 percent in 2014 when in the decade before 
we are achieving rates of 8 to 9 percent on average. It has 
been frequently noted but worth repeating that it was not the 
withdrawal of Soviet troops that lead to the downfall of the 
Najibullah regime in 1992, and the resulting descent into a 
bloody civil war. But the end to the Soviet subsidies following 
the collapse of the Soviet Union. In order not to make the same 
make mistake, I would make the following two recommendations in 
terms of economic assistance.
    First, the U.S. should play a strong leadership role at the 
International Donor Conference on Afghanistan, taking place in 
Brussels next October, to ensure that major donor countries 
renew their commitments to maintaining robust levels of 
civilian assistance to Afghanistan and so that it isn't just 
the U.S. having to foot that bill.
    And, second, the U.S. and other donors should provide the 
Afghan Government with more flexible financial resources that 
can be used to help stimulate the economy and create jobs in 
the short to medium term. This would help reduce the 
possibility of civil unrest due to economic discontent, and buy 
the Ghani administration some political space to get a reform 
agenda and a peace process on track. And if anyone is 
interested, I have copies with me today of a USIP paper by our 
expert, Bill Byrd, on reviving Afghanistan's economy, which 
goes into more detail.
    Ms. Ros-Lehtinen. Would you like that to be entered into 
the record, sir?
    Mr. Wilder. Yes, please.
    Ms. Ros-Lehtinen. Without objection, so ordered.
    Mr. Wilder. And my written comments also have more details.
    And then lastly, on the political situation, while the U.S. 
and other friends of Afghanistan need to continue to support 
the Afghan Government through security and economic assistance 
programs, the effectiveness of this support will be seriously 
undermined if the National Unity Government does not live up to 
its responsibilities to overcome political divisions and govern 
more effectively.
    Afghanistan's National Unity Government was created to 
resolve the political crisis that developed following the 
disputed 2014 Presidential elections. It was built for 
political inclusiveness among contending elite groups, not for 
effectiveness. As a result, its main achievement so far has 
been not to fall apart. This in itself is not an insignificant 
achievement given the major security and economic challenges 
the country is confronting and given that several other 
countries in the region are falling apart, but it is not 
enough. Afghanistan's National Unity Government must begin to 
act more like a unified government of a country facing a 
national crisis rather than a government endlessly litigating 
the past election and bickering over government positions.
    The price of just hanging together has been a great loss of 
legitimacy among the Afghan public. The government has been 
extremely slow to complete such basic tasks as filling key 
government positions, let alone the far more complex tasks that 
are required to address Afghanistan's simultaneously deepening 
economic, security, and governance crises.
    To conclude, I believe that a long-term U.S. commitment to 
remain actively engaged in Afghanistan is the best way to 
achieve our national security interests of ensuring a 
relatively stable Afghanistan in this troubled region of the 
world. In my written testimony, I recommend ways this can be 
done and outline some of the obstacles and opportunities for an 
inclusive peace process in Afghanistan.
    There will be no better way to help redeem the commitments 
of blood and treasure that have been made since 2001 by the 
United States, our allies, and the Afghan people than by 
remaining engaged and working together to achieve the objective 
of peace in Afghanistan. Thank you.
    [The prepared statement of Mr. Wilder follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. Thank you to all three of you 
for excellent testimony. I would first like to recognize Major 
Adrian Foster who served in Iraq and accompanied our codel to 
Afghanistan. Take a bow; come on. Thank you, Major, for your 
service. Thank you.
    My questions are in three categories: Afghan security 
forces capabilities, drug trade, and then, thirdly, Afghan 
governance. Dr. Kagan, the first one is to you. As much as we 
want the Afghan security forces to take the lead in the defense 
of Afghanistan. It is their country, and they have shown vast 
improvements no doubt. We still have many national security 
interests at stake that are too important to leave to 
uncertainty.
    You have warned that enemy expansion in Afghanistan, 
including ISIL, will accelerate under our current strategy. You 
have also argued that we must reconsider our current force 
posture in Afghanistan as well as our rules of engagement that 
several of you have pointed out.
    So I ask, why is our current mission limited to only 
counterterror operations against al-Qaeda and not all insurgent 
groups including ISIS, and how would you assess the Afghan 
security forces' current capability to counter the threats it 
faces from ISIS, other terror groups? What should our rules are 
engagement be?
    Mr. Kagan. The Afghan security forces were never built 
having in mind that they would have to operate under the 
conditions that they are now operating in as David Sedney 
pointed out. First of all, the assumptions underlying their 
structure were that they would face a much more mild insurgency 
that had been beaten down significantly. That is not the case.
    And it was also assumed that the United States and the 
international coalition would continue to provide significant 
high-end enablers in their fight against the Taliban as well as 
in their fight against al-Qaeda and other such organizations. 
So they are now engaged in a fight for which they were never 
designed and structured, which is one of the reasons why they 
are struggling so badly. It is important for us to recognize 
that their primary enemy is not al-Qaeda, and their primary 
enemy is not ISIS, nor will it be. Their primary enemy is the 
group that can destroy the Afghan state.
    And so in the sense, to the extent that we define our only 
interest in Afghanistan as going after terrorists and we limit 
our support to the Afghan security forces to that, we will not 
succeed in eliminating terrorists because we can't do that 
without a partner, and our partner will die because it is not 
those terrorists that are threatening it.
    So in my opinion, it is an enormous mistake that this 
administration has made consistently over the years to try to 
narrow the scope of our interests in Afghanistan exclusively to 
target its attacks fundamentally on terrorist leaders without 
recognizing the cataclysmic failure of that approach across the 
globe, but also without recognizing that it creates a high 
likelihood of what we are now seeing, which is that whatever 
gains we might make there will be washed out as insurgent 
groups that we are not allowing our troops to fight properly 
alongside the Afghans take over and destroy our partners.
    Ms. Ros-Lehtinen. Thank you so much Dr. Kagan. I would like 
to discuss our counternarcotics operation in country. We know 
that much of the profits from the elicit drug trade in 
Afghanistan goes to fund terror activities in Afghanistan and 
worldwide. However, our DEA and INL presence has been 
dramatically decreased there. The Afghans aren't yet fully 
capable of leading this kind of large-scale mission. Since 
these two are tied together, the drug trade and terror, 
shouldn't we place a greater emphasis on ending the drug trade 
in Afghanistan? Is that possible realistically?
    We go after the financing of other terror groups as part of 
our plan to counter and defeat them. We need to do so in 
Afghanistan as well. Why do we not? Is it because we don't 
think that that would be successful? To whoever would like to 
answer. Thank you, Dr. Sedney.
    Mr. Sedney. Others can add as well. But counternarcotics 
was an area that when we were doing our counterinsurgency 
efforts in Afghanistan in 2009, 2010, and 2011 and into 2012, 
we did take some efforts there, and USAID and others have 
cooperated as well. What we found by looking around the globe, 
however, is the only way you can effectively go after the 
narcotics industry is a holistic way. It is not just a security 
threat. It is not just the traffickers. You have to find ways 
to work with the farmers, give alternate crops, and you have to 
continue that. We did for about 2 years have some success in 
Helmont province, where a crop substitution program, a voucher 
program, combined with very aggressive enforcement efforts and 
military action against traffickers, that was making progress, 
but then we pulled back from that.
    We don't have the resources right now to carry that out. So 
sadly I would say as a consequence of our decision to pull back 
across the board in Afghanistan, counternarcotics, which I 
agree with you on the importance of, is an area where we are 
just not positioned to do really much at all that can be 
effective.
    Ms. Ros-Lehtinen. Mr. Wilder?
    Mr. Wilder. Yeah. If I can just add on that point. I have 
some good news and bad news. The good news is the cultivation 
area decreased this year by about 19 percent for opium poppy, 
and opium production actually reduced by nearly 48 percent. The 
bad news is it doesn't seem to be a result of counternarcotic 
efforts, but more due to farmer decisions about harvest, crop 
issues. But I agree with David that I think the larger issue is 
ultimately you do need a holistic approach, and it relates to 
broadly improving the security situation and then working with 
our Government, the Afghan Government, to try to improve 
governance and the rule of law. And I think that is though an 
area where we can be more optimistic because we do have a 
partner in the new government that I think does want to promote 
the rule of law and takes the issue of poppy production 
seriously in contrast to his predecessor.
    Ms. Ros-Lehtinen. And speaking of governance, as part of 
our assistance to Afghanistan, the U.S. provides at least half 
of that development aid directly through the Afghan budget. How 
can we take steps to ensure that we are mitigating all of the 
risks inherent in our direct assistance, and for sure the new 
management is tackling the problem of corruption? How can we 
help Afghanistan to step it up more?
    Mr. Wilder. Well I will take a stab at it, but then if 
others also want to add. I am actually very supportive of the 
idea of more on-budget assistance. The evidence actually shows 
that most corruption in Afghanistan was not the corruption from 
what went through the budget. That was actually a good control 
system. It was largely a lot of the money that was spent off 
budget, and now again with a more reform-oriented government in 
place which is trying to take measures to crack down on 
corruption, I would be supportive of trying to give the new 
government the support it needs through a more on-budget 
assistance.
    I do think, however, that the issue of performance is 
mixed. We have some ministers who are more reform oriented and 
more effective than others. And the issue of improved 
government is critically important. I mean if there is one 
lesson from the last 14 years in Afghanistan, it is that 
military gains on the battlefield are not sufficient. They 
really have to be matched by better governance. And I think 
that is where maybe with our assistance we need to have some 
more conditions attached of rewarding the better performing 
ministers and ministries and penalizing those that don't.
    So I do think there is room for conditions, and I actually 
think President Ghani himself is supportive of this, and I 
would actually laud the new development partnership agreement 
between the U.S. and Afghanistan which actually targets $800 
million which is released in tranches based on performance 
measures being achieved by the Afghan Government. So I think 
that kind of assistance, we are getting smarter at this, and I 
am confident with the new government we will have better 
achievements than we had in the past.
    Ms. Ros-Lehtinen. Let's hope so. Thank you so much. Mr. 
Boyle is recognized.
    Mr. Boyle. Thank you. I just was struck by how positively 
received President Ghani was when he spoke here in his joint 
session to Congress, so it is not just the failure of the 
previous President, but also a positive reflection on the new 
President himself.
    But, I wanted to just shift focus for a second. One of you 
talked about this in your opening statements. But the current 
relationship and partnership between Abdullah and President 
Ghani, how likely is this to be a durable alliance?
    Mr. Sedney. I mentioned it; I think Andrew did as well. I 
think it is likely to be a durable alliance. I know both men. I 
consider both of them personal friends, and I admire what they 
have done. The issue is that the whole structure of governance 
in Afghanistan is filled with people who are rich, are 
powerful, and in many cases are criminal, and fixing that is a 
job that would be a challenge for anyone who didn't have an 
insurgency at their door and all the other problems Afghanistan 
would have. I don't think the United States has done enough to 
help this partnership work together, and I think that is an 
area where we could do more politically to make it effective.
    I think, however I will stress that I think the two 
individuals involved are actually trying very hard to work 
together, but there are huge networks out there that are 
fighting each other.
    Mr. Wilder. If I could add just one point there. I very 
much agree with David on that, but I think the problem is not 
so much Dr. Ghani and Dr. Abdullah who I think have been able 
to work along. It is some of the groups around them which have 
become more problematic, but it is a serious problem, and I 
think the dysfunction is now creating a big rumor mill in 
Kabul; maybe we need plan B arrangements, and maybe we should 
loya jirga to rethink this whole process or have early 
elections, and I would strongly recommend that the U.S. 
Government position continue to be that there really isn't a 
plan B.
    Plan B is to make plan A work and not give any 
encouragement to those who want to try to destabilize the 
current government. Because it is not, I think, performing 
nearly as well as it needs to, but it would be I think a real 
political disaster and very politically destabilizing if we 
start looking at alternative arrangements.
    Mr. Boyle. You wanted to add, Dr. Kagan?
    Mr. Kagan. I do. Thank you. I agree with almost everything 
that was just said. I think unfortunately a loya jirga was a 
part of the plan under which this government was set up, and I 
think the government is going to run into some very serious 
problems when it does not conduct a loya jirga, much as I agree 
with you about the risks that that poses and the undesirability 
of that.
    This government reflects much of what U.S. policy toward 
its problems in the region has been consistently for the past 
couple of decades, which is an attempt to use, to cajole elites 
to form an elite settlement of some sort on the assumption that 
that would solve societal problems that are creating openings 
for our enemies. It has not worked hardly anywhere we have 
tried it.
    And I raise the point because we are doing something 
similar in Syria right now, where we are imagining that if we 
bring the elites, many of whom don't even represent anyone on 
the ground at this point, together and get them to sign up to 
some sort of agreement, that that will have a practical 
manifestation that will be important. The truth of the matter 
is that what has to happen in Afghanistan and many other places 
that are now riven by internal conflict, is that the 
populations and the affected constituencies have to form a new 
agreement about how the state is going to run.
    And the more that we, for very pragmatic reasons having to 
do with our own timelines and our desire to have partners that 
we can work with to execute our timelines, the more that we 
drive toward elite settlements that exclude the interests of 
large portions of the constituency, the more we create 
instability and governments that, as the one in Afghanistan, I 
do agree with David, that both men are trying to make it work, 
and I agree with Dr. Wilder that the people around them are the 
principal problem. But the fact that this is simply an elite 
settlement at this point is the core problem in my view.
    Mr. Boyle. So let me ask you, because you provided kind of 
a natural segue then, and it is touching upon something that 
you reference in your written testimony. To what extent in 
Afghanistan is our fight against the Taliban, our fight against 
remnants of al-Qaeda, our fight against ISIS or really just one 
small battle in the larger war against the caliphate?
    Mr. Kagan. Well the struggle against ISIS is a battle in 
the war against the caliphate, and it needs to be seen in that 
way, the struggle against al-Qaeda likewise. And so if the 
difficulty that we are all having figuring out how the 
administration sees the connections between these battles in 
Afghanistan and the struggles against al-Qaeda and ISIS 
elsewhere is a measure of the failure to articulate a 
meaningful strategy in that regard.
    The Taliban is a fascinating phenomenon because it is not 
in itself directly a threat to the United States in the sense 
that it continues not to have as its objective attacking us 
here, but it is a threat to the United States in the sense that 
it persists in a willingness to work with and host and support 
those groups that do. And so we continue to face the risk that 
a resurgent Taliban, because it wishes to or whether it is 
because it has no alternative--because after all, the Taliban 
government didn't exactly control all of the territory that it 
claimed to--will allow itself once again to become the host on 
which the terrorist parasites can breed and grow and attack us.
    Mr. Boyle. Which was the case with September 11 of course.
    Mr. Kagan. Exactly, exactly.
    Mr. Boyle. I know I went over, and so I guess I will yield 
to the next person up on the other side. Thank you.
    Mr. DeSantis [presiding]. I think that that is me since I 
am the only one up here.
    Mr. Boyle. I believe this is our opportunity to rewrite the 
rules.
    Mr. DeSantis. That is right. I will go ahead and recognize 
myself for 5 minutes. You know, the frustrating thing about 
this, I think is that when the President ran for election he 
specifically demagogued the issue of Afghanistan and said, 
look, Iraq is this bad war. Afghanistan is a great war. We have 
got to do it right. I am sick of what we are doing with this 
administration. They took their eye off the ball. And I am 
going to go get that done, and we are going to win that.
    And really I think that that was just rhetoric that made 
him, because he was against one of the conflicts, it made him 
appear to the voters that he was tough about terrorism, but 
really has not had his heart in this from the very beginning, 
and I think the results really speak for themselves.
    Now, Mr. Sedney, what specifically in terms of the rules of 
engagement is your recommendation?
    Mr. Sedney. Well, first of all, we should make the rules of 
engagement clear. But, secondly, the rules of engagement 
reflect the problem that has been identified and Dr. Kagan 
mentioned as well. Because we don't see the Taliban as a 
threat, we are not allowed to use our air forces, our air 
support, our close air support, against the Taliban unless our 
forces are in danger or if Afghan forces are in some great 
extremis.
    So when Afghan forces plan operations, when they try to do 
what we have trained them to do, they don't get any close air 
support. We are not allowed to promise them that, and they 
aren't allowed to try and anticipate it, and they don't get it. 
So our rules of engagement are so narrow and so complex that 
most of our troops don't really understand them well. The 
Afghans don't understand them.
    Over this year, the way the Taliban have operated, I think 
they have been probing so see where air power is used and where 
it isn't. And where it is not used, they have gone from using 
tens and scores of fighters to using masses of hundreds of 
fighters. In the coming year I expect them to use thousands of 
fighters. We need to change those rules of engagement so we can 
support the Afghan forces and give them the fire power they 
need. And the reason they need the fire power is because we 
meant to build them an air force, but we didn't, so the Afghans 
don't have their own close air support. We promised them, with 
the stress on promised them, Super Tucanos to arrive in 2018. 
That will be too late.
    So even if the Afghans, even if our rules of engagement are 
changed, we still need to help the Afghans on that in the 
longer term. But the rules of engagement need to be changed to 
reflect the situation on the ground and allow us to aid the 
Afghan forces, including in planned engagements. We have to 
recognize that the Taliban are the enemy of our ally, and we 
need to be prepared to fight them.
    Mr. DeSantis. See, I think our rules of engagement have 
been problematic for quite some time predating this 
administration, but this is just totally farcical. If you are 
engaged in a stabilization, counterinsurgency-type mission, and 
you have these ridiculously restrictive rules of engagement, 
you are going to lose. You are going to lose. That is just the 
bottom line, because you are giving the enemy a huge advantage 
when you are talking about engaging in the conflict. And why 
would we want to cede to the bad actors in the area, these huge 
advantages by having these, yes, not just restrictive, and I 
think as you point out, very complex rules of engagement. I 
think that is the worse thing to put a trigger puller out there 
or have people who could--I mean, we are seeing it a little bit 
with the air campaign against ISIS where it is very difficult 
to even know if you have authorization to strike a target. So 
this is not the way, I think, that we should be fighting these 
campaigns. And the problem is so much of it is based on 
political considerations, worried about bad headlines, and so 
on and so forth.
    And so, I think it is an absolutely critical point that you 
made. I think everything you said, I agree with. And I would go 
even further than yes, in this situation, but I think overall 
as we have looked at the war on terrorism, I think we have had 
rules of engagement that have just been too restrictive from 
the very beginning. Yes.
    Mr. Sedney. Can I had that in addition to the rules of 
engagement, one thing that is really hurting us is the lack of 
effective intelligence. We have removed most of the 
intelligence collection ability that we had in Afghanistan just 
a year ago. And I am talking about drones here, but not just 
predators, but the smaller ones, the handheld Scan Eagles and 
the ones in between that gave us a complete picture of the 
battlefield.
    So even with the rules of engagement, we don't have the 
visibility that is necessary to identify targets and strike 
them accurately and capably. We can't find out where those 
Taliban attacks are coming from and go after them. This is a 
technical capability the Afghans just don't have----
    Mr. DeSantis. And it compounds the rules of engagement 
issue because when you have very restrictive rules of 
engagement, you rely on having all this wonderful intelligence. 
Otherwise you can't do anything. You have to wait for people to 
start shooting at you. And so the premium, if you are going to 
do restrictive rules of engagement, you absolutely have got to 
do very robust intelligence; and yet we seem to be failing on 
both ends. And so I appreciate the comments and thank the 
chairwoman. I yield back.
    Ms. Ros-Lehtinen [presiding]. Where did you serve, Mr. 
DeSantis?
    Mr. DeSantis. I was in Iraq, but we had similar situations. 
I mean, part of it is when you are a counterinsurgency 
situation, you can't necessarily tell who is bad and who is 
good just by looking at them. They all wear man dresses or what 
have you. But, if you put our troops in these situations where 
they have to wait until they get shot at, well that is not 
fighting to win. And from what the testimony in Afghanistan, I 
think the problem is even worse than it was in Iraq.
    Ms. Ros-Lehtinen. Well, we thank for your service. My 
stepson and daughter-in-law served in Iraq in that confusing 
situation, and she served in Afghanistan as well. And the rules 
of engagement are still so crazy. Thank you for your service. 
Mr. Clawson is recognized.
    Mr. Clawson. So we thank you again for coming and for your 
viewpoints. Appreciate it. We roll back our support, our 
financial commitment, resource commitment, at all levels and 
from what I am hearing kind of to the point that the place is 
held together by contractors that just keep the HUMVEEs 
running, and if the contractors left, we might not even get the 
maintenance done--and I am not talking about drones. I am just 
talking about vehicles. Right?
    And then at the same time we put together, I think it was 
you, Mr. Sedney, that said a government of elites--or was that 
Dr. Kagan--of corrupt elites, and while the common man and 
woman is dying in the battlefield, so underresourced, elite 
leadership at the top that is viewed as corrupt. And, you know, 
I just kind of wonder if I was a typical Afghan combatant, if 
all the leaders had second homes in Virginia as their golden 
parachute, which is the rumor out there, right, and probably a 
lot of them do. Why would their soldiers want to fight, and why 
would we send our soldiers, people that are important to us on 
a personal level, to fight and die for folks who have a golden 
parachute already established because they have a summer home 
in the United States, and they are corrupt to begin with?
    If there is not a leadership change, in any company, if the 
top guy is corrupt, then it is all the money for him or her, 
you can get anybody to work. So if there is no--you know, I 
would like to say rules of engagement ought to be changed, 
which is what Ron is saying, or we ought to put in more 
commitments or more resources and get our allies to do the same 
thing, but if we have elite folks with summer homes in 
California or Virginia running the show and they are corrupt, 
why would we do any of that? And if we don't start with 
leadership, where do we start? Am I missing here, or are you 
all agreeing with me?
    Mr. Kagan. Sir, I would disagree with you on a couple of 
points. First of all, I have never advocated and never would 
advocate sending American soldiers into Afghanistan to fight 
for the----
    Mr. Clawson. No, no. I am not saying you are advocating. I 
am sorry if you took it that way.
    Mr. Kagan. No, no. I am not. I didn't. But to fight for the 
Afghan leadership. We send American troops to Afghanistan to 
fight for the American people. And so, at the moment that I 
become convinced that it is not necessary to have American 
troops in Afghanistan because of the vital national interests 
of the American people, I will be here telling you that I think 
we shouldn't have American troops in Afghanistan.
    Mr. Clawson. But are we asking too much by asking folks to 
go to war with leaders that are not committed and that have 
different--when their incentives are not aligned with the 
incentives of the frontline folks, you have a disaster, and I 
just think that is unethical.
    Mr. Kagan. And the second point I would make is that I 
think that that point was extremely valid when we were talking 
about Hamid Karzai. I think it is not valid when we are talking 
about Ashraf Ghani.
    Mr. Clawson. All three of you all agree with that? And I am 
talking about the layers below that.
    Mr. Kagan. Well I think it is very complicated when you get 
to the layers below that, and I think that what we have with 
President Ghani is a President who actually is committed to 
doing everything that you want him to do, and he is finding a 
great difficulty in doing that and we have frankly not been, as 
my colleagues on the panel--providing him a lot of support in 
that effort because for all of the discussion of smart power in 
this administration, fundamentally the only strategy that they 
really focus on is swatting bad guys.
    And I think that this is an area where you are right, that 
we need to have a major leadership change below the level of 
President Ghani and Dr. Abdullah. But President Ghani is trying 
to make that happen. What are we doing to help? That is a great 
question to direct to the administration and ask them. What are 
you doing to help empower the guy who is trying to change the 
toxic environment that you have been describing, because that 
was not the case when President Karzai was in power.
    Mr. Sedney. If I can just add, I am going to second very 
strongly what Fred said about Dr. Ghani. Dr. Ghani was an 
American citizen. He did have a home in Bethesda. He sold the 
home. He gave up his American citizenship. Went back to 
Afghanistan 6 years again. Has been the target of multiple, 
very serious attempts on his life. He is not a corrupt person, 
and I think he deserves our support in ways that President 
Karzai never did.
    And there are many other Afghans like them, the current 
acting minister of defense, the Taliban, the suicide bomber 
that blew up 5 feet from him and virtually killed him. He is 
now back working, but he will never be the same person because 
of that. The commander of the second corps of Afghanistan lost 
four brothers to the Taliban. He fights because he knows that 
if he doesn't fight, his people will die. I have talked to 
Afghans who are fighting because they want their daughters to 
go to school.
    I think there are lots--yes, there are corrupt people in 
Afghanistan and in their government, and they need to be gotten 
rid of; but there are many more who are fighting for many of 
the same ideals we are, and that is where our interests are 
congruent, because by keeping the Taliban from taking over 
Afghanistan, that will make us safer. So while I agree with the 
concerns about corruption, and it is very serious, I have 
personal experience with many, many Afghans who I admire.
    I would like to mention one more thing, Mr. Clawson, 
because you talked about our allies. Last week Germany said it 
would increase its forces by 130. That is a 15-percent 
increase. And so while our President is getting kudos from 
people--and I think it was a good thing that he decided not to 
decrease our forces--the Germans who have I think, a better 
understanding, are putting more of their troops on the line and 
increasing their forces by 15 percent. That is something I 
think we should be thinking about doing, too, not for corrupt 
people, but for our own national security.
    Mr. Wilder. If I could just add to that, to highlight again 
the high cost that is being paid by the Afghan armed forces 
now. Just in the first 7 months of this year, we had 4,300 
Afghan national defense service forces killed in Afghan and 
8,000 wounded. That contrasts with the tragic loss of 2,300 
approximately, Americans in the last 14 years in Afghanistan. 
But in the first 7 months, there was 4,300 killed, 8,000 
injured.
    So that to me that is one of the biggest differences in 
Afghanistan and say an Iraq situation where we have an ANDSF 
which is fighting hard, and we now do have new leadership in 
Afghanistan that I think does want to be a strong partner, and 
I think as David mentioned earlier, the irony is that we gave a 
lot more resources when we didn't really have a partner and we 
are pulling them away now when actually we do have a government 
that wants to partner with us.
    Mr. Clawson. What I hear all three of you saying is that we 
are off to a better start this time around and a lot more work 
to do. Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much Mr. Clawson, and if I 
could ask each of you three to give us a 2-minute summary of 
the one takeaway that you want us to make sure that we do in 
Congress or that we don't do.
    Mr. Kagan. Ma'am, we have a vital national security 
interest in ensuring that Afghanistan does not become again a 
base for transnational terrorists who intend to attack the 
United States and its allies. We are at severe risk of having 
that happen. The current strategy that the President is 
pursuing will allow that to happen. We must reverse that 
strategy. There are a lot of things that are involved in 
reversing that strategy. As an early champion of Task Force 
Shafafiyat, which was all about the anticorruption effort, I 
agree with the criticality of dealing with governance issues, 
helping President Ghani do that. I think that the 
administration needs to be a lot more engaged in that, and I 
recognize that there is no purely military solution to a 
problem. However, this is a war, and there is no purely 
political solution to most wars.
    And so we need to look to what our military approach here 
is. There is a tyranny of terrain in Afghanistan. If you want 
to have bases where you need them to fight the enemy, there is 
a certain minimum footprint that you need to have. I have gone 
through this drill myself with my own teams. I have watched 
this drill in theater multiple times. The bottom line is if you 
are below about 20,000 troops total, you are going to leave 
uncovered critical areas and critical units, and you are going 
to invite the reestablishment of certain kind of safe havens. 
No one wants to hear that number, and I am going to tell you, 
ma'am, that is a bottom end number. But the truth of the matter 
is that where we are is not sustainable from the standpoint of 
a strategy that can secure our homeland in Afghanistan.
    And I would only add because I have the privilege of 
speaking to Congress, Congress is part of the problem here 
because if you go back to the Army and ask them to put 20,000 
or 30,000 troops in Afghanistan right now, they are going to 
talk to you about how difficult that is and about how 
impossible it is going to become if sequester is allowed to 
hit, if the Budget Control Act remains, if we continue to 
disarm our Nation as the world becomes more dangerous and wars 
and enemies expand. Thank you ma'am.
    Ms. Ros-Lehtinen. Message received. Thank you. Mr. Sedney.
    Mr. Sedney. As I said, I think the situation in Afghanistan 
is worse today than people realize, and next year it is going 
to be much worse. We need an immediate reevaluation of our 
policies. I would urge Congress to take the lead in calling for 
such a study and for Congress to fund such a study to force the 
administration to go ahead and relook at it and bring in other 
voices besides the political ones that you mentioned before to 
look at it, people like Dr. Kagan, people who know the 
situation.
    Secondly, Pakistan. Pakistan is not only not doing what it 
can to make Afghanistan more stable. What Pakistan is doing is 
making it less stable. You mentioned that you have before you 
aid packages for Pakistan. While Pakistan in some areas has 
helped us, in other areas it has not. I urge Congress to take 
very seriously the opportunity to put pressure on Pakistan to 
do the right thing and make Afghanistan safer.
    Ms. Ros-Lehtinen. You can't look at Afghanistan as a 
standalone. You are right. Pakistan is part of that. Thank you. 
Dr. Wilder?
    Mr. Wilder. Yes. Thank you. There is a tendency in these 
hearings, but also in the media to have all the news, the doom 
and gloom from Afghanistan. And I think the situation is, 
indeed, very serious, and we need to take it seriously. But I 
think we also need to put into perspective the incredible 
achievements that we have attained in Afghanistan.
    I mean, in my wildest imagination as the Save the Children 
Director working in Taliban-controlled Afghanistan in the 
1990s, I could not have imagined that we would have achieved by 
2015 what we have achieved in terms of progress, in terms of 
women's rights, social indicators, the media revolution, where 
Afghanistan has one of the freest medias in the region, and I 
could go on and on. So I think it is really important to 
remember those tremendous gains that have been made but could 
be lost, which is why I come back to my point of the need to 
remain engaged is the single most important message I would 
have today.
    I think 5 or 6 years ago I was testifying on the Senate 
side and arguing that we were actually trying to spend far too 
much money in Afghanistan, you know, far too quickly and that 
that scale of funding that we are trying to spend in the most 
insecure areas of Afghanistan was fueling the corruption that 
was delegitimizing the government that was fueling the 
insurgency and so having all these perverse consequences.
    My concern today is that we not go from that extreme of 
trying to do too much in Afghanistan to the other extreme of 
doing too little in Afghanistan. We need to find the balance of 
how do we remain engaged in a much more sustainable way than 
before but for the long term, because as I said in my opening 
remarks, we paid a heavy price before when we walked away from 
Afghanistan prematurely. And I really think that to protect the 
U.S. national interests in Afghanistan, we need to remain 
engaged for the long-term. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Wonderful 
statements. Thank you to our excellent panelists. And with 
that, the subcommittee is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ---------- 
                              
                              
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            

                                     [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
